                 OFFICE OF INSPECTOR GENERAL

                                                         Catalyst for Improving the Environment


Audit Report




               Geothermal Heat Pump Consortium, Inc.
               Costs Claimed Under EPA Assistance
               Agreement Nos. X828299-01 and
               X828802-01

               Report No. 2003-4-00120


               September 30, 2003




This audit report contains findings that describe problems the Office of Inspector General (OIG) has
identified and corrective actions the OIG recommends. The report represents the opinion of the OIG,
and findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.
Report Contributors:                      Keith Reichard
                                          Patricia Brooks Taylor




Abbreviations
Consortium         Geothermal Heat Pump Consortium, Inc.
CFR                Code of Federal Regulations
DOE                Department of Energy
EPA                Environmental Protection Agency
GHPC               Geothermal Heat Pump Consortium, Inc.,
OMB                Office of Management and Budget
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                       September 30, 2003


MEMORANDUM

SUBJECT:       Report No. 2003-4-00120
               Geothermal Heat Pump Consortium, Inc.
               Costs Claimed Under EPA Assistance Agreement Nos. X828299-01 and
               X828802-01

               /s/ Michael A Rickey
FROM:          Michael A. Rickey
               Director, Assistance Agreement Audits

TO:            Richard Kuhlman
               Director, Grants Administration Division

As requested, we have examined the costs claimed by the Geothermal Heat Pump Consortium,
Inc. (Consortium), located in Washington, DC, under Environmental Protection Agency (EPA)
Assistance Agreement Nos. X828299-01 and X828802-01. The agreements were to provide
financial support for the Consortium to increase awareness of geoexchange (geothermal heat
pump) technology through public outreach and information dissemination.

We questioned the total Federal share claimed of $1,153,472 as unsupported, because the
Consortium did not comply with the Federal rules, regulations, and terms of the assistance
agreements.

This audit report contains findings that describe problems the Office of Inspector General (OIG)
has identified and corrective actions the OIG recommends. The report represents the opinion of
the OIG, and findings contained in this report do not necessarily represent the final EPA position.
The OIG has no objection to the release of this report to any member of the public upon request.

On July 30, 2003, we issued a draft report to the Consortium for comment, and on August 27,
2003, comments were provided. The Consortium did not agree with the report’s findings. A
copy of the complete response with attachments has been provided to the action official. A
summary of the Consortium’s response is included in the report as Appendix B. We held a
telephone exit conference on September 25, 2003, and informed the Consortium of the final
results of our audit.
Action Required

In accordance with EPA Manual 2750, the action official is required to provide this office with a
proposed management decision specifying the Agency’s position on all findings and
recommendations in this report. The draft management decision is due within 120 days of the
date of this transmittal memorandum.

If you have questions concerning this report, please contact Keith Reichard, Assignment
Manager, at (312) 886-3045.

Attachment
                                   Table of Contents
Independent Accountant’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  1

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   3

Results of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   5

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25



 Appendices
         A         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

         B         Consortium Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

         C         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37




                                                              i
                      Independent Accountant’s Report
We have examined the total outlays (costs) claimed by the Geothermal Heat Pump Consortium,
Inc. (Consortium) under the two EPA financial assistance agreements (Agreements), as shown
below:


                               Financial Status Report/Federal Cash Transaction Report
          Assistance                                        Cumulative        Federal Share of
          Agreement          Date           Period         Total Outlays       Total Outlays
             No.           Submitted        Ending           Claimed             Claimed

          X828299-01         1/30/02        9/30/01            $712,500            $712,500*

          X828802-01         7/31/02        6/30/02            $440,972            $440,972**

              Total                                          $1,153,472          $1,153,472

          *   Outlays were reported on a Financial Status Report.
         **   Outlays were reported on a Federal Cash Transaction Report.


The Consortium certified that the outlays reported on the Financial Status Report, Standard Form
269A, and Federal Cash Transaction Report, Standard Form 272, were correct and for the
purposes set forth in the Agreements. The preparation and certification of each claim was the
responsibility of the Consortium. Our responsibility is to express an opinion on these claims
based on our examination.

Our examination was conducted in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. Accordingly, on a test basis, we examined
evidence supporting the claimed costs and performed such other procedures as we considered
necessary in the circumstances (see Appendix A for details). We believe that our examination
provides a reasonable basis for our opinion.

As discussed in the “Results of Audit” section of this report, the Consortium’s financial
management system was not adequate to account for claimed costs in accordance with Federal
regulations. The Consortium also did not comply with Federal requirements when procuring
contractual services.

In our opinion, because of the effects of the matters discussed in the preceding paragraph, the
claimed costs on the Financial Status Report and Federal Cash Transaction Report do not
present fairly, in all material respects, the allowable costs in accordance with the criteria set forth




                                                  1
in the Agreements. As a result, the total costs of $1,153,472 claimed are unallowable for Federal
participation. The following sections provide details of our examination and conclusions.



                                                           /s/ Keith Reichard
                                                           Keith Reichard
                                                           Assignment Manager
                                                           Field Work End: April 1, 2003




                                                2
                                        Background
On June 22, 2000, and September 26, 2001, EPA awarded Agreement Nos. X828299-01 and
X828802-01, respectively, to the Consortium, located in Washington DC.

The following table provides some basic information about the authorized project periods and the
amounts awarded under the Agreements covered by this audit.

          Assistance           EPA           Local       Total             Project
         Agreement No.        Share *        Share       Cost              Period

        X828299-01           $712,500          $0       $712,500     05/15/00 - 09/30/01

        X828802-01           $748,300          $0       $748,300     10/01/01 - 09/30/02

        * The EPA share is 100 percent of total cost.


       Assistance Agreement No. X828299-01: This Agreement was authorized under section
       103 of the Clean Air Act to provide financial support for the Consortium to increase
       awareness of GeoExchange (geothermal heat pump) technology through public outreach
       and information dissemination. A GeoExchange heating and cooling system uses the
       consistent temperature of the earth to provide heating, cooling, and hot water for both
       residential and commercial buildings. Activities under the Agreement included operation
       of the GeoExchange Information Center, management of lead referral service,
       maintenance of the Consortium’s Internet web site, publication and distribution of the
       “Earth Comfort Update” newsletter, attendance at trade shows and conferences, and
       production of a national teleconference.

       Assistance Agreement No. X828802-01: This Agreement was authorized under section
       103 of the Clean Air Act to provide financial support for the Consortium to increase
       awareness of the benefits of geothermal heat pump technology through direct and indirect
       public and consumer information dissemination and specific outreach targeted to the
       education sector. Activities under the Agreement included operation of the GeoExchange
       Information Center, maintenance of the Consortium’s Internet web site, publication and
       distribution of the “Earth Comfort Update” newsletter, attendance at trade shows and
       conferences, and implementation of a Design Assistance Program and Technology
       Transfer Program.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Claimed Costs:              Program outlays identified by the Consortium on the Financial
                                   Status Report (Standard Form 269A) and the Federal Cash
                                   Transaction Report (Standard Form 272).


                                                    3
Unsupported         Costs incurred and claimed that are not supported by
Questioned Costs:   adequate documentation and/or have not been approved by a
                    responsible agency official.




                                 4
                                  Results of Audit
The Consortium’s financial management system and procurement system did not comply with
the requirements of 40 Code of Federal Regulations (CFR) Part 30 and Office of Management
and Budget (OMB) Circular A-122. The provisions of 40 CFR Part 30 establish uniform
administration requirements for Federal grants and awards to non-profit organizations. OMB
Circular A-122 establishes principles used by all Federal agencies in determining the costs of
work performed by non-profit organizations under grants and cooperative agreements.

In accepting the Agreements, the Consortium agreed that: (1) its financial management system
would comply with requirements in 40 CFR Part 30; (2) all procurement transactions would be
conducted in a manner to provide, to the maximum extent practical, open and free competition;
and (3) all costs incurred under the Agreements would comply with the provisions of OMB
Circular A-122.

The Consortium’s financial management system was inadequate in that the Consortium did not:
(1) separately identify and accumulate the costs for all direct activities, such as membership
support and lobbying; (2) account for program income generated by the activities funded by the
EPA Agreements; (3) prepare or negotiate indirect cost rates; (4) prepare written procedures for
allocating of costs to final cost objectives; (5) maintain an adequate labor distribution system;
and (6) provide adequate support for direct cost allocations. In addition to the financial
management system deficiencies, the Consortium also did not: (1) competitively procure
contractual services or perform any of the required cost or pricing analyses; and (2) comply with
all reporting requirements. As a result of these and other deficiencies described below, we have
questioned all $1,153,472 of costs claimed through June 30, 2002, under the two Agreements.
Details follow.

Inadequate Accounting for Membership and Lobbying Expenses

       The Consortium did not separately identify and accumulate all the costs associated with
       its membership activities and lobbying efforts. OMB Circular A-122, Attachment A,
       subparagraph B (4), provides that the costs of activities performed primarily as a service
       to members, clients, or the general public when significant and necessary to the
       organization’s mission must be treated as direct costs whether or not allowable and be
       allocated an equitable share of indirect costs. Some examples of these types of
       membership and lobbying activities include:

       •   Maintaining membership rolls, subscriptions, publications, and related functions.
       •   Providing services and information to members, legislative or administrative bodies,
           or the public.
       •   Promoting, lobbying, or other forms of public relations.
       •   conducting meetings and conferences, except those held to conduct the general
           administration of the organization.


                                                5
The Consortium operated a membership organization that provided lobbying support on
behalf of its members throughout the budget periods of the two EPA Agreements. The
literature for prospective members outlined the benefits of joining the Consortium at
various levels. These benefits included:

•   A subscription to the “Earth Comfort Update” newsletter.
•   Quarter or half page ads in the “Earth Comfort Update.”
•   Copies of the Consortium publications.
•   Free referrals from trade shows.
•   Link to the Consortium web site.
•   Banners on the front page of the Consortium web site.
•   Distribution of members’ publications through the Consortium booth at trade shows.
•   Use of Design Assistance and Strategic Outreach programs.
•   Listing in Membership Directory.
•   Membership Certification and Decal.
•   Discount on the Consortium Conferences.
•   Access to Business Planning and Development Services.
•   Invitation to attend Roundtable Discussion with government officials and Congress.

The Consortium membership activities include all labor and expenses incurred to provide
these benefits to existing members, as well as the cost for recruitment of new members.

The Consortium lobbying effort included the costs for outside legal counsel and
legislative consultants, and the salary and expenses for: (1) the employees involved in the
Consortium’s direct lobbying initiatives; (2) the activities of the Consortium’s lobbying
compliance officer as outlined in the Consortium employees’ handbook; and (3) the
employees responsible for the oversight and management of outside legal counsel and
legislative consultants involved in the Consortium lobbying efforts.

In accordance with Circular A-122, all direct costs associated with membership and
lobbying activities, including fringe benefits and overhead costs, should have been
separately identified in the accounting records. However, the Consortium’s financial
management system was not structured to allow for the treatment of membership
activities and lobbying effort as direct cost activities. The Consortium’s employee time
sheets did not include separate categories for either membership or lobbying labor, and
the Consortium’s general ledger either did not use or include all accounts needed to
accumulate all expenses relating to membership and lobbying activities.

Consortium’s Response

The Consortium’s financial management system properly accounted for membership and
lobbying expenses. The Consortium did not perform any services or provide any benefits
for members that were different from the services and benefits it provided to the general
public. Contributions by members were not made based on obtaining benefits or services,
but solely to support the Consortium’s public mission. Also, the Consortium maintained

                                         6
that it had no line item on its Income Statement for membership program expenses, and
as such, dedicated no separate resources to typical membership activities.

Since Consortium personnel did not spend more than 31 hours on lobbying activities
during the entire duration of the two EPA Assistance Agreements cited in this report, the
Consortium was not required to create time logs, calendars, or records for this minimal
amount of lobbying activity according to OMB Circular A-122, Attachment B, paragraph
25 (c) (4). The 31 hours of lobbying activities were primarily for the purpose of
managing the independent contractor hired by the Consortium to perform lobbying
services. Based on the Consortium’s actual indirect cost rate being three times higher
than the indirect cost rate reimbursed by the two EPA Assistance Agreements cited in this
report, the Consortium used no Federal funds for lobbying activities.

Auditor’s Reply

We disagree with the Consortium’s contention that it properly accounted for costs
associated with its membership and lobbying activities. Even though required by OMB
Circular A-122, Attachment A, subparagraph B (4), the Consortium did not identify and
accumulate the costs associated with its membership and lobbying activities as a direct
cost objective. Whether allowable or unallowable, these costs remained unidentified and
commingled with other indirect and direct costs of the Consortium’s operations, and were
not allocated an equitable share of indirect costs as required by OMB Circular A-122.

Article III of the Consortium’s By-Laws, entitled, “Membership,” relates the
Consortium’s establishment as a membership organization. The Consortium, through
adoption of these By-Laws, made a decision to operate a membership program and,
therefore, incur such costs as necessary to solicit members, provide benefits, collect dues,
and otherwise administer the program. Based on this decision, the Consortium’s
accounting structure should have also been designed to accumulate the costs related
directly to the membership program.

The Consortium argued that it did not identify and accumulate costs for “membership
activities” per se because it did not perform any services or provide any benefits for
members that were different from the benefits and services it provided to the general
public. We disagree. According to the Consortium’s own Earth Comfort Update
newsletter, “the merits of membership” include: (1) a national voice and national
presence in Washington, (2) promotion of the member’s business and providing lead
referral service, (3) strategic outreach and design assistance, (4) marketing assistance, and
(5) business development. The Earth Comfort Update related that one of the most
successful member programs was design assistance. The design assistance program
offered members access to nationally recognized GeoExchange design experts who could
help to develop feasibility studies or highly cost-effective designs. The Earth Comfort
Update also stated that the lead referral service was often identified by members as one of
the most valuable assets of membership. These sales leads were gathered from the



                                         7
GeoExchange Information Center, trade shows and the Strategic Outreach and Design
Assistance programs.

In addition, the resumes for both the Consortium’s EPA Program Manager and the
Executive Director were provided as part of the application package for Assistance
Agreement X-828299-01.1 These resumes demonstrated the employees’ recognition of
the significance of their activities conducted to benefit the Consortium’s members, and
also recognized these benefits as not having been provided to the “general public,” but to
a defined 700-member organization. The Executive Director’s responsibilities included
establishing and directing all policies, positions, and activities of the membership
organization. The EPA Program Manager’s membership responsibilities included
communication, public relations, and recruitment, including developing new membership
brochures and devising new due structures, benefits, and services.

The importance of these stated membership responsibilities was further supported by the
Executive Director’s employment contract with the Consortium. The employment
agreement provided for incentive compensation based on “Membership Dues” as follows:

      During each calendar year of the Agreement, Employer shall pay Employee
      an incentive payment equal to two percent (2%) of membership dues actually
      collected in such year.

Based on these documents, it is reasonable to expect both the Executive Director and
EPA Program Manager to have devoted considerable effort to membership-related
activities and that a significant, not de minimus, portion of their salary and travel would
have been attributable to membership efforts, and therefore must be separately accounted
for according to OMB Circular A-122.

During the period covered by the two Agreements, the reports and travel records of the
primary consultant employed by the Consortium, also known as the Consortium’s “Key
Accounts Manager,” illustrated his involvement in recruitment of new members and
retainment of current members for the Consortium. That portion of his $10,000 per
month fee and associated travel costs relating to membership issues should have been
specifically identified and assigned to membership activities according to the
requirements of OMB Circular A-122. However, none of the expenses described above
were separately identified as solely benefitting the Consortium’s membership program
and remain commingled with other expenses in the Consortium’s books and records.

In addition, the Consortium maintained that it had no line item on its Income Statement
for membership program expenses, and as such, dedicated no separate resources to typical
membership activities. We disagree. The Consortium has chosen not to separately
identify the resources dedicated to generating the membership dues included on its
Income Statement. In addition to the costs of providing membership benefits, additional

1
    The EPA Program Manager was also called the Communications and Governmental Affairs Director.

                                               8
resources were required for the costs of membership activities, such as processing of
membership applications, tracking of members, processing of renewal notifications, and
the collection and accounting for membership dues. Other resources typically dedicated
to membership activities would be those associated with the development and production
of the Consortium’s membership information packets and brochures, stationery, and
postage for membership communications, employee salaries, fringe benefits, travel, and
business entertainment relating to membership solicitation and retention.

The Consortium’s lobbying efforts are also a benefit provided to Consortium members.
As related in its membership brochures, the Consortium determined a varying percentage
of the membership dues “not deductible as a business expense because of GHPC’s
lobbying activities on behalf of its members.” Each year, the Consortium updated the
membership brochure to reflect its determination as to what percentage of the
membership dues pertain to lobbying.

With respect to lobbying, the Consortium asserted that it was not required to create time
logs, calendars, or records for the minimal amount of lobbying activities that it
performed. However, the Consortium was already required to maintain an acceptable
labor distribution system under OMB Circular A-122, Attachment B, subparagraph 7 (m),
as a requirement for receiving Federal assistance funds. An acceptable labor distribution
could have been based on the time sheets already in use by the Consortium, if these time
sheets had included the membership and lobbying direct labor categories required by
OMB Circular A-122, Attachment A, subparagraph B (4). Therefore, as the time sheets
were already in use, there was no need for the Consortium to “create” any records to
account for staff time spent on lobbying effort.

Further, the provisions of OMB Circular A-122, Attachment B, subparagraph 25 (c) (4),
provide that the absence of time logs, calendars, or similar records will not serve as a
basis for disallowing costs by contesting estimates of lobbying time spent by employees
during a calendar month. However, we are not contesting the monthly lobbying estimates
because the Consortium did not provide monthly lobbying estimates.

The issue in this report is that the Consortium did not recognize any of the Executive
Director’s salary or benefits, and only a small portion of the Consortium’s EPA Program
Manager’s salary and benefits, as unallowable lobbying activities. However, their
involvement in the Consortium’s lobbying efforts seemed more extensive. For example,
the cover letter from the lobbying contractor to the Executive Director indicated
involvement in the lobbying activity by both the Consortium’s Executive Director and the
EPA Program Manager. The cover letter stated that:

    . . . to follow up on our discussion earlier this month and put into place our
   federal affairs program for the year 2001 . . . We will work with you to be sure
   that GeoExchange is one of the technologies which would benefit from any
   changes in the law . . . as we did last year, we will work with you and [name]



                                        9
   to expand the network of friends of the industry in the federal government in
   order to create sales opportunities to federal agencies. . . .

In addition, the scope of work for the January 30, 2001, lobbying contract, included:
(1) drafting and implementing strategies for generating federal funding within EPA and
the Department of Energy (DOE); (2) developing and pursuing Congressional
opportunities for GeoExchange to be a preferred heating and cooling technology for
school construction and renovation; (3) drafting and implementing a strategy to change
the Federal tax to encourage the use of GeoExchange technology; and (4) assisting in the
design and execution of the program to improve Federal awareness of the GeoExchange
technology.

We do not believe that the lobbying contractor could perform the types of lobbying tasks
discussed in the contract without substantial discussion and coordination with the
Consortium’s Executive Director and EPA Program Manager.

This lobbying effort also corresponded well with the Executive Director’s employment
contract in effect with the Consortium during the same period. The employment contract
provided the Executive Director with incentive-based compensation for “Grant/ Funding”
as follows:

   During each calendar year of this Agreement, Employer shall pay Employee
   an incentive payment equal to one percent (1%) of public, private, Federal,
   state, or local government funds (or any combination thereof) actually
   collected by Employer in such year up to $5 million, and one-half of one
   percent (0.5%) of such funds collected over $5 million and up to an overall
   cap of $10 million.

The resume for the Consortium’s EPA Program Manager included lobbying activities as
follows:

   Establish and maintain relations with Members of Congress, Committees and
   staff to secure federal monies for the organization. Successfully secured
   funding for organization during fiscal years 1998 - 2000.

Based on the lobbying contract, the January 30, 2001, cover letter, the Executive
Director’s employment contract, and the resume for Consortium’s EPA Program
Manager, it would appear reasonable to expect both the Executive Director and EPA
Program Manager to have devoted considerable effort to lobbying-related activities, and
that a significant, not de minimus, portion of their salary and travel would have been
attributable to lobbying efforts unallowable according to OMB Circular A-122.
In summary, it was and is the Consortium’s choice to operate as a dues paying
membership organization, and to incur the costs associated with providing member
benefits and administering the membership program. According to OMB Circular A-122,
Attachment A, subparagraph B (4), the Consortium has no choice while receiving Federal

                                       10
    funds but to treat its membership and lobbying activities as a direct cost objective by
    separately identifying and accumulating the costs associated with membership and
    lobbying activities.


Improper Treatment of Program Income

    The Consortium did not recognize the dues paid by its members as program income
    related to the EPA-supported activities under the two Agreements. As outlined in the
    membership literature, the Consortium membership benefits included publication of the
    “Earth Comfort Update” newsletter, design and maintenance of the Consortium web site,
    dissemination of the Consortium publications from the GeoExchange Information Center,
    lead referral service, trade show attendance, and use of the design assistance and strategic
    outreach programs. All of these activities were also identified as tasks completed and
    funded under the one or both of the EPA Agreements.

    Title 40 CFR 30.2(x) defines program income as “gross income earned by the recipient
    that is directly generated by a supported activity or earned as a result of the award.” The
    Consortium collected dues from individuals and organizations in return for providing the
    membership benefits identified above. Since these membership benefits were included in
    the Agreements financed with EPA funds, the associated membership dues should be
    classified as program income according to 40 CFR 30.2(x). According to the
    Consortium’s OMB Circular A-133 annual audits, prepared by the Consortium’s
    Certified Public Accountant, membership dues for Calendar Years 2000, 2001, and 2002
    were $774,971, $679,691, and $468,584, respectively.

    Title 40 CFR 30.24(a) states that the “Federal awarding agencies shall apply the standards
    set forth in this section in requiring recipient organizations to account for program
    income related to projects financed in whole or in part with Federal Funds.” Title 40
    CFR 30.24(d) provides that, “In the event that the Federal awarding agency does not
    specify in its regulations or the terms and conditions of the award how program income is
    to be used, paragraph (b) (3) shall apply automatically to all projects or programs except
    research. . . .” Title 40 CFR 30.24(b)(3) states that program income will be deducted
    from the total project or program allowable cost in determining the net allowable costs on
    which the Federal share of costs is based.

    Agreement No. X828299-01 does not specify the appropriate treatment of program
    income generated by the activities of the award. Therefore, the program income from the
    Consortium membership dues for the award period should have been deducted from the
    allowable costs claimed under the Agreement No. X828299-01 to determine the net
    allowable Federal share of costs.

    The May 3, 2002, no-cost amendment to Agreement No. X828802-01 contained an
    administrative condition that provided that program income will be added to funds
    committed to the project by EPA and used to further eligible project or program
    objectives. Therefore, the Consortium should have identified the additional funds to be
                                             11
committed and the additional activities to be completed under the Agreement resulting
from the program income earned. However, the Consortium did not identify the program
income earned or any additional activities to be undertaken.

Consortium’s Response

The Consortium has not earned “program income” since contributions to the Consortium
were made solely to further the overall objectives of the organization and were not
generated by any specific activities funded by the EPA grants. Also, the May 3, 2002
no-cost amendment to Agreement No. X828802-01 allowed the Consortium to commit
these funds to the Consortium’s mission without having to deduct these funds from the
allowable costs claimed under the Assistance Agreement to determine the net allowable
federal share of costs.

The Consortium also stated that according to OMB Circular A-110, subparagraph (24)
(e), contributions made from organizations which had already become members before
May 15, 2000, or which joined the Consortium after September 30, 2002, would not be
considered program income since those contributions came from organizations which had
become members and made contributions either prior to or after the completion of the
two EPA Assistance Agreements at issue in this audit. The Consortium maintained that
the majority of contributions received during 2000 through 2002 cannot be considered
“program income” as these were contributions from organizations which had been
supportive to the Consortium prior to or after completion of the grants.

Auditor’s Reply

We disagree with the Consortium and believe that it did earn program income generated
by the specific activities funded by the Agreements. In our reply to the Consortium’s
response on Inadequate Accounting for Membership and Lobbying Expenses, we
addressed how services provided under the Agreements related to membership benefits.
Further, the Consortium’s scope of work prepared for Agreement X-828299-01 also
provided insight into member benefits funded by EPA. For example, in the description of
sub task 1d, “Management of Lead Referral Service,” the Consortium stated:

   GHPC provides those interested in purchasing a GeoExchange system
   with referrals to manufacturers’ representatives and local installers. At
   the same time, GHPC provides its trade members with the same public
   contacts, as well as with many other contacts gathered from strategic
   outreach and trade show activities.

In describing Task 2, “GeoExchange Industry Web Site,” the Consortium stated, “GHPC
maintains a password-protected Members Only site for its dues-paying members. Here,
GHPC members can access industry leads gathered through the referral system (above),
as well as a proprietary school project leads database.”



                                       12
The Consortium has not succeeded in demonstrating that contributions made to the
Consortium as membership dues were made solely to further the overall objectives of the
organization and not in response to any membership benefits provided by the
organization. The Consortium has chosen to operate a membership program soliciting
membership dues for providing membership benefits. To the extent these benefits are
provided to Consortium members by activities funded under the EPA Assistance
Agreements, the related yearly membership dues become program income of the EPA
Assistance Agreements in accordance with 40 CFR 30.2(x). The program income
recognized for the EPA Assistance Agreements would match the membership dues
received by the Consortium related to the membership period during which EPA provided
the member benefits, i.e., the performance period of the Assistance Agreements.

It should be noted that the May 3, 2002, no-cost amendment to Assistance Agreement
No. X828802-01 required that any program income “be added to the funds committed to
the project by EPA and used to further eligible project or program objectives.” This is
contrary to the Consortium’s assertion that the program income could simply be added to
funds supporting “the Consortium’s mission” in general. To demonstrate compliance
with the amendment to the Assistance Agreement, the Consortium would have to identify
the activities and expenses incurred supporting project or program objectives funded by
the program income.

As stated previously, the Consortium has chosen to operate a membership program that
resulted in funds received by the organization in the form of membership dues. However,
if the Consortium continues to assert that this membership program provided no benefits
to its members, and all funds generated by the program were contributions to the
Consortium, then the membership program was in fact a fund-raising activity for the
organization. OMB Circular A-122, Attachment B, subparagraph 23 (b), provides
“Costs of organized fund raising, including financial campaigns, endowment drives,
solicitation of gifts and bequests, and similar expenses incurred solely to raise capital or
obtain contributions are unallowable.” Therefore, according to OMB Circular A-122,
Attachment A, subparagraph B (3), the costs of operating the Consortium’s fund raising
operations such as those necessary to solicit and collect donations, and otherwise
administer the program, were unallowable and must be treated as direct costs for the
purposes of determining indirect cost rates.

The Consortium argues that if an organization became a member prior to the award of the
Agreements, or after completion of the Agreements, that program income cannot be
earned in accordance with OMB Circular A-110, subparagraph (24) (e). The provisions
of OMB Circular A-110, subparagraph (24) (e) state:

   Unless Federal awarding agency regulations or the terms and conditions of
   the award provide otherwise, recipients shall have no obligation to the
   Federal Government regarding program income earned after the end of the
   project period.



                                        13
     We agree that program income earned after the end of the project period is not considered
     program income. However, the argument that program income cannot be earned if an
     organization was a Consortium member prior to the awards of the Agreements is without
     merit and misapplied. If an organization continues to pay membership dues after the
     Agreements were awarded, then that organization continues to receive member benefits
     from the Consortium during the period of the Agreements. Thus, the Consortium
     continues to incur expenses to provide those membership benefits. Consequently, any
     program income earned during the period May 15, 2000, through September 30, 2001,
     should be deducted from the allowable costs claimed under the Agreement No.
     X828299-01. Program income earned during the period October 1, 2001, through
     September 30, 2002, should be used to support eligible project or program objectives
     under Agreement No. X828802-01.


Unsupported Indirect Cost Rates

     The Consortium did not provide us with evidence that it had prepared or submitted an
     indirect cost proposal supporting the indirect and fringe rates used in the calculation of
     costs claimed under the Agreements.

     OMB Circular A-122, Attachment A, subparagraph E (2), requires a non-profit
     organization to submit an initial indirect cost proposal to the cognizant Federal agency no
     later than 3 months after the effective date of the award. The Circular also includes the
     requirement that organizations with previously negotiated indirect cost rates must submit
     a new indirect cost proposal to the cognizant agency within 6 months after the close of
     each fiscal year. In addition, both Agreements included special conditions that required
     the Consortium to prepare and maintain on file an indirect cost rate proposal within
     90 days of accepting the assistance agreement.

     The indirect cost and fringe rates used by the Consortium to claim costs under the
     Agreements were based on rates used by the Consortium under prior EPA and
     Department of Energy cooperative agreements. The Consortium did not provide us with
     a proposal supporting these rates or an indirect cost rate proposal prepared subsequently
     to the EPA awards.

     Consortium’s Response

     The Consortium has prepared and negotiated indirect cost rates and submitted such rates
     to EPA. Since from its inception through fiscal year 2002, DOE was the Consortium’s
     cognizant agency for purposes of negotiating its indirect rates, the Consortium was not
     obligated to provide EPA with an indirect cost rate proposal. The Consortium did
     provide EPA with the basis of its proposed rates in each Assistance Agreement, which
     was accepted and used as a basis for determining the funding for the Consortium’s
     program. In January 2003, EPA became the cognizant Federal agency and the
     Consortium submitted an Indirect Cost Rate Proposal for review and approval to EPA in
     2003.
                                              14
    Auditor’s Reply

    Except for fiscal year 2002, the Consortium did not provide us any evidence that it had
    prepared, submitted, and negotiated any annual indirect cost proposals with either DOE
    or EPA.2 OMB Circular A-122, Attachment A, paragraph E, requires that assistance
    agreement recipients must submit to its cognizant agency an indirect cost proposal to
    substantiate its claim for indirect costs. In addition, paragraph E states that the results of
    any negotiation of indirect costs rates must be formalized in a written agreement between
    the cognizant agency and the non-profit organization. No such agreement or agreements
    were provided.

    The Consortium appears to be arguing that once indirect rates have been established in
    the Assistance Agreements, no further action is needed by either the Consortium or the
    cognizant Federal agency. This is an incorrect assumption. Recipients are required under
    the provisions of OMB Circular A-122 to submit annual indirect cost rate proposals to its
    cognizant agency for negotiation. This was not done except for fiscal year 2002.
    Furthermore, the Consortium’s OMB Circular A-133 audit, prepared by the Consortium’s
    Certified Public Accountant, for fiscal year 2002 identified as a reportable condition that
    the Consortium did not submit an indirect cost rate proposal in accordance with the
    cooperative agreement.

    With respect to the fiscal year 2002 indirect cost rate proposals, we noted that the
    Consortium did identify some lobbying expenses as a direct cost, but the expenses were
    incorrectly excluded from the Consortium’s total direct costs allocation base. Further, the
    Consortium did not specifically identify any labor costs associated with managing the
    lobbying effort of the Consortium. We also noted that the Consortium did not identify
    membership activities as a direct cost as discussed above. According to OMB Circular
    A-122, Attachment A, subparagraph B (4), the Consortium’s membership and lobbying
    costs must be identified and treated as a direct cost and allocated an equitable share of
    indirect costs. Consequently, given the level of detail provided in the submission, we
    were unable to determine if all of the Consortium’s membership and lobbying activities
    were identified as a separate direct cost objective as required by OMB Circular A-122,
    Attachment A, subparagraph B (4).


Absence of Written Procedures

    The Consortium did not have written accounting procedures identifying direct and
    indirect costs, and the basis for allocating such costs to projects as required by 40 CFR
    30.21(b). In addition, the Consortium did not prepare indirect cost rate proposals, as
    required by OMB Circular A-122, which would distinguish indirect costs from direct
    costs.



    2
        The Consortium submitted its fiscal year 2002 indirect cost rate proposals to EPA on June 23, 2003.
                                                     15
Title 40 CFR 30.21(b)(6) states that the recipient’s financial management system shall
provide written procedures for determining the reasonableness, allocability, and
allowability of costs in accordance with the provisions of the applicable Federal cost
principles and the terms and conditions of the award. The existence of these procedures
would have established a basis for the Consortium’s consistent treatment of direct and
indirect costs. However, we noted during our examination that the Consortium claimed
direct expenses for items such as postage, stationery, and general insurance under the
Agreements. Costs for postage, stationery, and general insurance are typically treated as
indirect expenses. Without written policies and procedures to distinguish between direct
and indirect expenses, and an acceptable indirect cost proposal, we cannot properly
evaluate the costs charged to the Agreements.

Consortium’s Response

The Consortium possesses written procedures for allocating costs to final cost objectives
and internal controls in place to assist the accounting office with proper document flow,
approvals, and requirements. This system is supplemented by OMB Circular A-122,
Attachment A, which is on file in the Consortium Accounting office. The Consortium
also had written procurement policies and procedures in the GHPC Employee Manual
which outlines many procedures and contains OMB Circular A-122, procurement
policies, and administrative policies. The Consortium’s own internal controls as
supplemented by OMB Circular A-122 served as the written procedures for determining
the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable Federal cost principles and the terms and conditions of the
award. The Consortium continues to improve and update its written procedures.

Auditor’s Reply

The Consortium’s written procedures did not adequately address how costs would be
treated in varying circumstances. For instance, the accounting procedures did not identify
when costs would be charged: (1) only direct, (2) only indirect, or (3) to either direct or
indirect activities. Also, the accounting procedures should identify the determining
criteria when costs can be charged direct or indirect. The three pages of the Consortium’s
“Internal Control Procedures” only provide guidance on accounting procedures for:
(1) the accounting manager’s handling of checks; (2) the processing of membership
applications and invoices; (3) the preparation of bank reconciliations; (4) the completion
of payroll duties; (5) request for proposals, purchase orders, contracts, and task orders
processing; and (6) the processing of accounts payable invoices. The additional policies
and procedures contained in the GHPC Employee Manual and attached to those
procedures (OMB Circular A-122 and the Lobbying Disclosure Act of 1995) do not
provide the users with sufficient direction on the Consortium’s specific policies for
assignment of costs. Additional information satisfying the requirements of 40 CFR
30.21(b)(6) are written procedures for determining the reasonableness, allocability, and
allowability of costs.



                                        16
Inadequate Labor Distribution System

     The Consortium did not maintain an adequate labor distribution system to assure the
     proper recording of labor costs to all cost objectives. Therefore, the Consortium's labor
     distribution system did not meet the requirements of OMB Circular A-122,
     Attachment A, as required by 40 CFR 30.27. As a result, we were unable to determine
     whether the claimed labor costs as recorded in the Consortium general ledger were
     allowable and allocable to the EPA cooperative agreements.

     OMB Circular A-122, Attachment A, subparagraph B (4), states: “The costs of activities
     performed primarily as a service to members, clients, or the general public when
     significant and necessary to the organization’s mission must be treated as direct costs
     whether or not allowable and be allocated an equitable share of indirect costs.”

     The Consortium operated as a membership organization that provided lobbying support
     on behalf of its members. As required by OMB Circular A-122, the Consortium should
     have identified its membership services and lobbying activities as direct activities.
     However, the Consortium's employee time sheets did not include these labor categories,
     which would have allowed employees to record their labor effort for membership services
     or lobbying activities. For salary expense to be correctly allocated to all direct cost
     objectives, the Consortium employees should have been able to assign time to these
     activities. Further, since the Consortium did not properly account for membership and
     lobbying activities, we have no way of knowing whether these activities were improperly
     charged direct to the EPA Agreements or the labor costs were recorded as indirect labor.

     Also, during the budget period for Agreement No. X828802-01, the Consortium allocated
     labor costs to direct projects using a combination of budgeted and negotiated rates, rather
     than actual labor rates. For Agreement No. X828802-01, the Consortium used the
     proposed employee labor rates as contained in the applications rather than actual
     employee labor costs. OMB Circular A-122, Attachment B, subparagraph 7 (m) (1)
     states: “Charges to awards for salaries and wages, whether treated as direct costs or
     indirect costs, will be based on documented payrolls approved by a responsible official(s)
     of the organization.” The Consortium’s use of budgeted rates as the source of labor costs
     on the EPA Agreement did not meet the requirements of Circular A-122.

     Consortium’s Response

     The Consortium maintained an adequate labor distribution system to assure the proper
     recording of labor costs to cost objectives. The Consortium charged either actual or
     lower than actual labor rates to the Assistance Agreements. The labor cost was charged
     to each cost objective based on the percentage of hours worked by each employee during
     that particular month - thereby ensuring that the distribution of labor was based on actual
     work performed by the employee as required by OMB Circular A-122, Attachment B,
     paragraph (7). Due to changes in salary rates during the calendar year, and a clerical
     error, there were under applied labor costs to the projects. During 2000 through 2002 the
     Consortium undercharged the EPA Assistance Agreements $28,447.68.
                                             17
     Auditor’s Reply

     We disagree with the Consortium’s contention that it maintained an adequate labor
     distribution system. The labor distribution system cannot be adequate if: (1) labor costs
     are not assigned to all known direct cost objectives as required by OMB Circular A-122,
     and (2) actual labor rates are not used to calculate both the direct and indirect labor.

     The Consortium did not require employees to identify and record the direct labor effort
     for either membership or lobbying activities as required by OMB Circular A-122.
     Without the allocation of labor to all known cost objectives, we were unable to determine
     whether the claimed labor costs are allowable.

     Further, the Consortium did not always use actual labor rates in calculating both the direct
     and indirect labor. The Consortium’s accounting practice was to record the actual payroll
     amounts in its indirect salary account and then allocate the direct labor charges to direct
     cost objectives. Any differences between the salary expense allocated to direct cost
     objectives and the actual employees’ salary remained in the indirect salary account. This
     method of accounting results in direct labor costs being understated and indirect labor
     being overstated. Consequently, the indirect cost rate would be overstated.

     Not withstanding the fact that the Consortium did not account for membership and
     lobbying activities, we agree that the claimed direct labor costs for the two Agreements
     may have been understated because the Consortium did not consistently use actual
     employee labor rates in recording labor costs to final cost objectives. For Assistance
     Agreement X-828299-01, the Consortium used incorrect labor rates for two employees
     for several months. This error resulted in a $13,782 understatement of direct labor
     charges to the EPA Assistance Agreement. For Assistance Agreement X828802-01, the
     Consortium incorrectly used budgeted rates rather than actual employee labor rates. This
     error resulted in a $5,003 understatement of direct labor charges to the EPA Assistance
     Agreement from October 1, 2001 through June 30, 2002. The Consortium also used
     negotiated labor rates for other final cost objectives instead of actual labor rates which as
     previously stated resulted in the indirect labor costs being overstated and direct labor
     being understated.

Unsupported Allocations of Direct Costs

     Our examination also determined that direct costs claimed under the EPA Agreements
     included unsupported costs benefitting more than one program. For example:

        •   In December 2000, the Consortium reclassified $7,884 of contract costs for its
            information center to Agreement No. X828299-01. The Consortium did not
            provide a rationale for the reclassification of these costs, which had originally
            been charged to a DOE grant.

        •   The Consortium claimed consulting costs of $46,063 under Agreement No.
            X828801-01. However, during the period that the costs were claimed, the
                                              18
       consultant also worked on a New York State contract and additionally provided
       membership services to the Consortium. Neither the Consortium nor the
       consultant’s invoices provided sufficient detail to support the costs charged to the
       Agreement.

Consortium’s Response

The Consortium provided adequate support for direct cost allocations. The operation of
the GeoExchange Information Center was an activity included in the scopes of work for
both the DOE and EPA Assistance Agreements. A portion of three invoices or $7,884 for
this activity was reclassified from the DOE grant to the EPA Agreement. This $7,884
represents the Consortium’s best estimate of the EPA share of the operation of the
GeoExchange Information Center for the period when the DOE and EPA Agreements
overlapped.

The Consortium also has sufficient detail to support claiming consulting costs of $46,063
under Agreement X828802-01. Each activity and expense report submitted by the
Consultant clearly designated that it was an activity performed pursuant to Agreement
X828802-01. The Consultant had written the acronym “EPA” at the top of each activity
report and in the “Comments” section of each expense report provided to the
Consortium’s Project Manager. The level of effort spent on the activities, as designated
by the activity reports, was charged to the EPA Agreement at the consultant’s hourly rate.

Auditor’s Reply

Costs are to be allocated in accordance with the relative benefit received. The
Consortium has not provided an adequate rationale for how it determined that $7,884 was
allocable to the EPA Agreement. In addition, the Consortium has not provided a
rationale for the 4- to 6-month delay in transferring the costs from DOE to the EPA
Assistance Agreement. The costs were associated with invoices the Consortium paid in
June and August 2000, but the adjustment was not made until December 2000.

With respect to the consulting costs of $46,043, the activity and expense reports provided
in support of the consultant’s activities during Agreement No. X828802-01 did not
provide sufficient detail to allow for an allocation of the consultant’s expenses among all
cost objectives for which the consultant provided services to the Consortium. The
consultant was paid a monthly fee, which should be allocated based on the hours worked
on each Consortium activity, direct and indirect. The support for the consultant’s billings
did not include a contemporaneous record of time spent on all activities, which would
allow the Consortium to allocate the consultant’s fee and expenses between activities.
The consultant’s activity and travel reports also repeatedly identify “membership in
GHPC” as a topic of discussion for meetings and telephone calls, and as a purpose of
business meals. That portion of the consultant’s $10,000-per-month fee, and associated
travel costs relating to membership issues, should have been specifically identified and
assigned to membership activities according to the requirements of OMB Circular A-122,
Attachment A, subparagraph B (4). However, none of the expenses described above were
                                        19
    separately identified as benefitting the Consortium’s membership program and remained
    commingled with other expenses in the Consortium’s books and records.

Improper Procurement Practices

    The Consortium did not: (1) competitively procure contractual services in accordance
    with 40 CFR 30.43, and (2) adequately justify the lack of competition as required by
    40 CFR 30.46. In addition, the Consortium did not perform the required cost or price
    analyses for the procurement of goods and services obtained under the EPA Agreements
    as required by 40 CFR 30.45.

    The provisions of 40 CFR 30.43 provide that all procurement transactions shall be
    conducted in a manner to provide, to the maximum extent practical, open and free
    competition. The Consortium did not comply with the provisions of 40 CFR 30.43 in
    that it awarded contracts under the EPA Agreements based on the results of prior
    competitive procurement actions conducted under other Federal awards. The Consortium
    provided no justification for this lack of competition or the basis for the award cost or
    price in the procurement files. Title 40 CFR 30.46 requires that procurement records and
    files for purchases in excess of the small purchase threshold of $100,000 shall include the
    following at a minimum: basis for contractor selection; justification for lack of
    competition when competitive bids or offers are not obtained; and basis for award cost or
    price. The Consortium’s written procurement procedures also state that the Consortium
    will award all contracts in excess of $25,000 through competitive solicitations, except in
    exceptional circumstances in which a sole source justification can be demonstrated.

    Examples of the Consortium’s improper procurement practices follow:

    •   For Agreement No. X828299-01, the Consortium awarded a $168,357 fixed price
        contract for a video teleconference in September 2000, based on the previous
        selection of the contractor under a 1996 request for proposals.

    •   Also for Agreement No. X828299-01, the Consortium claimed $153,939 under cost
        reimbursement contracts to provide information center services. The Consortium had
        continuously contracted with Integrated Marketing Concepts since its selection under
        a 1998 solicitation. The Consortium did issue a Request for Proposals during July of
        2001 for $165,000 of budgeted information center activities under Agreement No.
        X828802-01. However, the Consortium chose the existing contractor over seven
        respondents, even though the existing contractor had not prepared a proposal in
        response to the solicitation, was not included in the prepared cost and price analyses,
        and was selected based on the unknown results of an anticipated renegotiation of the
        existing contract.

    •   The Consortium contracted separately with two individuals to provide the $100,000
        of consulting services budgeted for the Technology Transfer Program under
        Agreement No. X828802-01. The Consortium selected one of the

                                            20
   individuals as a result of a 1996 request for proposal and the other based on a 1999
   solicitation.

The Consortium also did not perform the required cost or price analyses for the
procurement of goods and services obtained under the EPA Agreements. Title 40 CFR
30.45 provides that some form of cost or price analysis shall be made and documented in
the procurement files in connection with every procurement action. Price analysis may be
accomplished in various ways, including the comparison of price quotations submitted
and market prices and similar indicia, together with discounts. Cost analysis is the review
and evaluation of each element of cost to determine reasonableness, allocability, and
allowability. The Consortium did not provide any cost or pricing data supporting the
purchases of goods and services for the Agreements to demonstrate compliance with
40 CFR 30.45.

Competition promotes obtaining the best goods and services at the best price. The lack of
competition when procuring goods and services under a grant can result in lower quality
services and wasted funds. As a result of this lack of competition and cost or pricing
analysis, there was no assurance that the contract costs paid under the cooperative
agreements were reasonable. Therefore, these costs are not allowable under Federal rules.

Consortium’s Response

The Consortium did competitively procure contractual services in accordance with 40
CFR 30.43 and adequately justify contractual services in accordance with 40 CFR 30.46.
OMB’s choice of the term “to the maximum extent practical” in the drafting of A-110
proves that OMB understood that not each and every single procurement could or would
be competitively bid. Rather, OMB Circular A-110 required recipients of federal funds to
have a procurement system in place to ensure maximum competition. The Consortium
documented that all purchases exceeding the small purchase threshold of $100,000 were
competitively selected. The Consortium maintains an acceptable procurement system
which promotes competition to the maximum extent practical; taking into account dollar
thresholds, past performance, follow-on effort, customer needs, and availability of
products and services from other sources. The Consortium believes that it was in
compliance with the competition requirement in 40 CFR 30.43 based on the EPA
approval of its Scopes of Work for the two Assistance Agreements which outlined the
basis for contractor selection.

Auditor’s Reply

The Consortium did not provide the contemporaneous bidding information or cost or
pricing data required by Federal regulations to support the procurement conducted for
Agreements Nos. X828299-01 and X828802-01. Therefore, the procurement costs are
unsupported and should not be included in any costs claimed for these Agreements.

EPA’s approval of the scope of work for the two Agreements did not equate to a waiver
or deviation from the Consortium’s compliance with applicable Federal regulations
                                        21
    governing procurement. These regulations applied to the current procurement actions
    conducted for the Agreement Nos. X828299-01 and X828802-01 and are not satisfied by
    the Consortium’s previous procurement activities for awards from EPA or DOE. As an
    example, basing the Consortium’s fiscal year 2000 selection of the teleconferencing
    services’ provider on responses to a 1996 request for proposals does not illustrate “an
    acceptable procurement system which promotes competition to the maximum extent
    practical.” This teleconferencing activity represented 24 percent of the total award under
    Agreement No. X828299-01. This lack of current competition for significant
    procurement under both Agreements provided no assurance that reasonable prices were
    obtained for goods and services received. Also, the Consortium may have performed
    some form of current cost or price analysis for procurement actions for the Agreements
    under review. However, the absence of the required documentation precludes any
    demonstration of compliance with 40 CFR 30.45, which requires that a cost or pricing
    analysis shall be made and documented with every procurement.

    Furthermore, the Consortium’s Fiscal Year 2002 OMB Circular A-133 audit, prepared by
    the Consortium’s Certified Public Accountant, reported as a “reportable condition” that
    the Consortium’s procurement procedures do not fully conform to applicable Federal law
    and regulations and standards identified in OMB Circular A-110.


Noncompliance With Reporting Requirements

    We identified several areas where the Consortium either did not comply with the
    regulations or did not comply with the administrative terms of the Agreements in relation
    to reporting. The Consortium did not: (1) submit a timely final financial status report,
    (2) comply with some of the administrative conditions contained in the Agreements, and
    (3) submit complete quarterly reports.

    For Agreement No. X828299-01, the Consortium did not submit a final financial status
    report within 90 days of project completion as required by 40 CFR 30.52. The
    Consortium submitted the final report on January 30, 2002, which was 120 days after the
    end of the cooperative agreement’s budget period, or 30 days late.

    Also, for Agreement No. X828299-01, the Consortium did not:

    •   Produce an annual report including a full description of work and expenditures to date
        as required by the Agreement’s administrative condition number 4.

    •   Submit an annual business plan as required by the Agreement’s administrative
        condition number 14.

    •   Provide EPA with information regarding energy performance and concurrent energy
        reduction in terms of “million metric tons of carbon equivalent” in 10 to 30 buildings
        as required by the Agreement’s administrative condition number 15.

                                            22
For Agreement No. X828802-01, the Consortium did not comply with the Agreement’s
administrative condition number 4 and include a discussion of expenditures to date in the
quarterly reports.

As a result of the Consortium’s noncompliance with reporting requirements, EPA did not
have sufficient information to make an informed assessment of the Consortium’s progress
in meeting the objectives of the agreements or determine whether the unexpended funds
were adequate to complete all work.

Consortium’s Response

The Consortium has complied with most of the reporting requirements. Based on its
quarterly and final report submitted under both Assistance Agreements, the Consortium
believes that it has provided sufficient information on the Consortium’s progress in
meeting the objectives of the Agreements. For Agreement No. X828299-01, the
Consortium regrets not filing an annual report and not filing the final financial status
report within 90 days of project completion. For Agreement No. X828802-01, the
Consortium regrets not adding a discussion of expenditures to its quarterly reports. The
Consortium has since implemented monthly compliance reports that require the
Consortium’s Project Manager to go through a checklist of all reporting and
administrative conditions of the Agreements.

Also, under EPA Agreement No. X828299-01, the Consortium was unable to comply
with administrative condition number 15 and document emission reductions for 10-30
buildings. The Consortium informed EPA that it did not have the funds to perform such
an activity which required professional engineering effort and expense not included in the
original Scope of Work approved by EPA.

Auditor’s Reply

The Consortium agreed that it did not comply with all the reporting requirements as
contained in the regulations and the administrative terms of the Assistance Agreements.
The Consortium’s noncompliance with the reporting requirements prohibited EPA from
completing timely evaluation of the Consortium’s progress under both Assistance
Agreements.

The new monthly compliance reports, if updated to reflect the terms and conditions of
each new award, and completed on a timely basis, should assist the Consortium in
avoiding future reporting noncompliance.

Since EPA did not remove administrative condition number 15 from the Agreement, the
recipient was still obligated to comply.




                                        23
24
                              Recommendations
We recommend that EPA:

      1.    Evaluate the need and scope of the Assistance Agreements considering that there
            were other sources of income to support the activities; i.e., membership dues and
            agreements with other Federal agencies. If EPA determines that there was not a
            need for the assistance, take action to annul the Assistance Agreement(s).

If EPA decides not to annul the Agreements, we recommend that EPA:

      2.    Recover the $1,153,472 of unsupported costs.

      3.    Suspend work under the current Agreements and make no new awards until the
            Consortium can demonstrate that its accounting practices are consistent with
            40 CFR 30.21. At a minimum, the Consortium’s system must:

            a.   Ensure that financial results are current, accurate, and complete.

            b.   Include written procedures to determine reasonableness, allocability, and
                 allowability of costs in accordance with OMB Circular A-122.

            c.   Include accounting records that are supported by adequate source
                 documentation.

            d.   Require the Consortium to establish an adequate time distribution system that
                 meets the requirements of OMB Circular A-122, Attachment B, paragraph (7).
                 The system should account for total hours worked and leave taken, and
                 identify all the specific activities and final cost objectives that the employees
                 work on during the pay period, including membership and lobbying activities.

            e.   Require the Consortium to follow all procurement standards under 40 CFR
                 30.40 through 30.48.

      4.    Require the Consortium to submit an indirect cost rate proposal prepared in
            accordance with OMB Circular A-122.

      5.    Require the Consortium to provide detailed documentation supporting its use of
            program income to fund additional activities furthering eligible project or program
            objectives under Assistance Agreement X828802-01. If the Consortium cannot
            provide documentation, program income should be deducted from any costs EPA
            determines to be allowable under the Assistance Agreement.




                                              25
If EPA determines that some costs are allowable, we recommend that EPA:

       6.   Deduct from allowable costs any program income earned by the membership
            activities funded under Assistance Agreement X828299-01.

       7.   Consider using program income from Agreement No. X828802-01 to fund the study
            which was never completed under Agreement No. X828299-01 per administrative
            condition number 15.




                                            26
                                                                                    Appendix A

                           Scope and Methodology

EPA discovered a weaknesses in the Consortium’s financial management system during an
on-site review. Consequently, EPA requested the OIG to conduct an audit of the Consortium.
We performed our examination in accordance with the Government Auditing Standards, issued
by the Comptroller General of the United States, and the attestation standards established by the
American Institute of Certified Public Accountants. We also followed the guidelines and
procedures established in the Office of Inspector General Audit Process Handbook dated
November 5, 2002.

We conducted this examination to express an opinion on the total costs claimed under the EPA
Agreements, and determine whether the Consortium was managing its EPA Assistance
Agreements in accordance with applicable requirements. To meet these objectives, we asked the
following questions:

•   Is the Consortium’s accounting system adequate to account for Assistance Agreement funds
    in accordance with 40 CFR 30.21?

•   Does the Consortium maintain an adequate labor distribution system that conforms to
    requirements of OMB Circular A-122?

•   Is the Consortium properly drawing down assistance agreement funds in accordance with the
    Cash Management Improvement Act?

•   Are the Consortium’s procurement procedures for contractual services in compliance with
    40 CFR 30.40 to 30.48?

•   Is the Consortium complying with its reporting requirements under 40 CFR 30.51 and 30.52
    and the administrative conditions of the Agreements?

•   Are the costs claimed/incurred under the Agreements adequately supported and eligible for
    reimbursement under the terms and conditions of the Agreements, OMB Circular A-122, and
    applicable regulations?

•   Is the Consortium properly accounting for any program income related to projects financed
    with Federal funds in accordance with 40 CFR 30.24?

In conducting our examination, we reviewed the project files and obtained the necessary
Assistance Agreement information for our examination. We interviewed the grants specialist to
determine whether any concerns needed to be addressed during our examination. We also
interviewed the Consortium personnel to obtain an understanding of the accounting system and
the applicable internal controls as they relate to the claimed costs. We obtained and reviewed the

                                                27
single audit reports of the Consortium to determine whether there were any reportable conditions
and recommendations addressed in those reports.

We reviewed management’s internal controls and procedures specifically related to our
objectives. Our examination included reviewing the Consortium’s compliance with OMB
Circular A-122, 40 CFR Part 30, and the terms and conditions of the Assistance Agreements.
We also examined the claimed costs on a test basis to determine whether the costs were
adequately supported and eligible for reimbursement under the terms and conditions of the
Assistance Agreements, OMB Circular A-122, and applicable regulations. We conducted our
field work from December 16, 2002, to April 1, 2003.




                                               28
                                                                                                  Appendix B

                      Consortium’s Summary Response3
McGuireWoods LLP
Washington Square
1050 Connecticut Avenue N.W.
Suite 1200
Washington, DC 20036-5317
Phone: 202.857.1700
Fax: 202.857.1737
www.mcguirewoods.corn
Tenley A. Carp                                                                         tcarp@rncguirewoods.com

Direct:202.857.1741       McGuireWoods                                                 Direct Fax: 202.828.2969




August 27, 2003

Mr. Michael A. Rickey
Director, Assistance Agreement Audits
Office of Inspector General
U.S. Environmental Protection Agency
Washington, D.C. 20460

         RE:      Draft Audit Report of Costs Claimed by the Geothermal Heat Pump Consortium
                  EPA Assistance Agreement Nos. X828299-01 and X828802-01

Dear Mr. Rickey:

         We have been retained by Geothermal Heat Pump Consortium, Inc. (the "Consortium") to
assist the Consortium in responding to the above-mentioned draft audit report. We appreciate the
opportunity to explain the facts with regard to the Consortium's financial management system
and procurement system. As our response will prove, the Consortium's financial management
system and procurement system are adequate in light of the Consortium's role as a non-profit
grantee whose sole mission is to advance the use and improvement of electric geothermal heat
pump technology. This letter sets forth a summary of the Consortium's response.

        EPA granted Assistance Agreement Nos. X828299-01 and X828802-01 to the
Consortium in accordance with 31 U.S.C. § 6304(1) "to carry out a public purpose." As a
recipient of such Assistance Agreements, the Consortium agreed to abide by Office of
Management and Budget ("OMB") Circular No. A-122 regarding Cost Principles for Non-Profit
Organizations ("OMB Circular No. A-122"), EPA's own regulations set forth at 40 C.F.R. Part 30
and the terms and conditions set forth in the Assistance Agreements themselves. To a great

         3
          In response to the draft report, the Consortium submitted a summary and a detailed response and included
two volumes of attachments. Due to the length of the detailed response and attachments, we have elected to only
include the summary response in the report. A copy of the complete response with attachments has been provided to
the action official. We will make the detailed response and attachments available upon request.
                                                          29
extent, the Consortium's financial management system and procurement system complied with
these rules. Where the Consortium did not comply with a certain requirement, it has taken
immediate remedial measures to address the problem.

        First, the Consortium's financial management system properly accounted for membership
expenses. According to OMB Circular A-122 Attachment A, Paragraph B(4), "The costs of
activities performed primarily as a service to members, clients or the general public when
significant and necessary to the organization's mission must be treated as direct costs whether or
not allowable and be allocated an equitable share of indirect costs." The Consortium did not
identify and accumulate costs for "membership activities" per se because the Consortium did not
perform any services or provide any benefits for members that were different from the services
and benefits it provided to the general public. Even though organizations have made
contributions to the Consortium and were called "members," these contributions were not made
for the purpose of gaining access to any special services or private benefits but rather to support
the Consortium's public mission. For example, the organizations which chose to become a part of
the multi-year National Earth Comfort Program collaboration were identified as "members" of
the national effort to increase the awareness of renewable energy technology, but did not receive
increased services or benefits in exchange for those contributions. The Consortium is unique in
this way; it does not provide its so-called members with anything different from what it provides
to the general public.

        The Consortium's financial management system also properly accounted for lobbying
expenses. According to OMB Circular A-122, Attachment B, Paragraph 25 (c)(4), "Time logs,
calendars or similar records shall not be required to be created for any month when (1) the
employee engages in lobbying 25 percent or less of the employee compensated hours of
employment during that calendar month and (2) within the preceding five-year period, the
organization has not materially misstated allowable or allocable costs of any nature, including
legislative lobbying costs." Since the Consortium personnel did not spend more than 31 hours on
lobbying activities during the entire duration of the two Assistance Agreements cited in the draft
audit report, the Consortium was not required to create time logs, calendars or records for this
minimal amount of lobbying activity. In fact, the Consortium hired an independent contractor to
perform lobbying services. The Consortium's own 31 hours of lobbying activities were primarily
for the purpose of managing administering of the lobbying contract. Furthermore, the
Consortium's actual overhead rate/indirect cost rate as documented in the Consortium's internal
income statement (90% -125%) was at least three times higher than the indirect cost rate
reimbursed by the two Assistance Agreements cited in this draft audit report (30%). Thus, the
Consortium did not use any federal funds for lobbying activities.

        Second, the Consortium has not earned "program income" generated by the activities
funded by the two Assistance Agreements. According to EPA regulations, "program income''
means gross income earned by the recipient that is directly generated by a supported activity or
earned as a result of the award. 40 C.F.R. § 30.2(x). Under this definition, the Consortium has
not earned "program income" since contributions to the Consortium were made solely to further
the overall objectives of the organization and were not generated by any specific activities funded
by the grants. If, for example, these grants had been for the specific purpose of publishing reports
on geothermal heat pumps and the Consortium earned income from the sales of those particular
                                                30
reports, that revenue would properly be defined as "program income." In this case, contributions
were made in generalized support of the Consortium. Such income is not properly classified as
"program income." Furthermore, the May 3, 2002 no cost amendment to Assistance Agreement
No. X828802-01 allowed program income to be added to funds committed to the project by EPA
and used to further eligible project or program objectives. This Amendment allowed the
Consortium to commit these funds to the Consortium's mission without having to deduct these
funds from the allowable costs claimed under Assistance Agreement No. X828802-01 to
determine the net allowable federal share of costs.

        Furthermore, the contributions made to the Consortium from organizations which had
already become members before May 15, 2000 or which joined the Consortium after September
30, 2002 would not be considered program income since those contributions came from
organizations which had become members and made contributions either prior to or after the
completion of the two Assistance Agreements at issue in this audit. As OMB Circular A-110
(24)(e) makes clear, "Unless Federal awarding agency regulations or the terms and conditions of
the award provide otherwise, recipients shall have no obligation to the Federal Government
regarding program income earned after the end of the project period." Since neither EPA's
August 27,2003 regulations nor the conditions of these two Assistance Agreements contradict the
rule set forth in OMB Circular A-I10, this rule applies to the facts in this case. Here, $772,717.43
of the $774,971.33 collected in 2000 (99.71%), $652,867.30 of the $679,691 .00OO collected in
2001 (96.05%), and $389,417.30 of the $468,684.00 collected in 2002 (83.09%) were
contributions from organizations which had been supportive to the Consortium prior to or after
completion of the grants. Thus, even if EPA continues to misinterpret program income as it
relates to the Consortium's mission, a majority of the Consortium's funds cannot possibly be
considered "program income."

        Third, the Consortium has prepared and negotiated indirect cost rates and submitted such
rates to EPA. According to OMB Circular A-122, Attachment A (E)(2)(emphasis added):

       Negotiation and approval of rates.
       a. Unless different arrangements are agreed to by the agencies concerned, the Federal
          Agency with the largest dollar value of awards with an organization will be
          designated as the cognizant agency for the negotiation and approval of the indirect
          cost rates and, where necessary, other rates such as fringe benefit and computer
          charge-out rates. Once an agency is assigned cognizance for a particular non-profit
          organization, the assignment will not be changed unless there is a major long-term
          shift in the dollar volume of the Federal awards to the organization. All concerned
          Federal agencies shall be given the opportunity to participate in the negotiation
          process, but, after a rate has been agreed upon, it will be accepted by all Federal
          agencies.

        From its inception through its fiscal year 2002, the Consortium's cognizant agency for
purposes of negotiating its indirect rates was the Department of Energy ("DOE") and not the EPA
since most of the Consortium's funding had been provided by DOE. Thus, the Consortium was
not obligated to provide EPA with an indirect cost rate proposal. The Consortium did provide
EPA with the basis of its proposed rates in each Assistance Agreement, which was accepted and
                                                31
used as a basis for determining the funding for the Consortium's program. Beginning in January
of 2003 when the Consortium received EPA Assistance Agreement XA-83055901, the EPA
became the Federal agency that provided the Consortium with the largest dollar value of awards.
Therefore, the Consortium submitted an Indirect Cost Rate Proposal for review and approval to
the EPA in 2003.

        Fourth, the Consortium possesses written procedures for allocating of costs to final cost
objectives. Title 40 C.F.R. § 30.21(b)(6) states:

       (b) Recipients' financial management systems shall provide for the following:
       (6) Written procedures for determining the reasonableness, allocability and allowability
           of costs in accordance with the provisions of the applicable Federal cost principles
           and the terms and conditions of the award.

The Consortium has internal controls in place to assist the accounting office with proper
document flow, approvals, and requirements. The Consortium requires, for example, that before
an expense is logged in, a payment authorization form be completed. This form identifies the
account number that the expense is charged to and requires verification by the program manager,
accounting office and final approval by the Executive Director. This system is supplemented by
OMB Circular A-122, Attachment A which is on file in the Consortium's Accounting office. The
Consortium also had written procurement policies and procedures in the GHPC Employee
Manual, a copy of which each employee receives on the first day of employment at the
Consortium. The employee manual outlines many procedures and contains OMB Circular A-122,
procurement policies, and administrative policies. The Consortium's own internal controls as
supplemented by OMB Circular A-122 served as the written procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award. The Consortium
continues to improve and update its written procedures.

       Fifth, the Consortium maintained an adequate labor distribution system to assure the
proper recording of labor costs to cost objectives. The Consortium charged either actual or lower
than actual labor rates to the Assistance Agreements. GHPC entered employee timesheet
information into a spreadsheet containing monthly salary information. GHPC then entered the
number of hours worked for each employee and calculated the percentage of time worked by
each employee on each project (cost objective). The labor cost was charged to each cost objective
based on the percentage of hours worked by each employee during that particular month -thereby
ensuring that the distribution of labor was based on actual work performed by the employee as
required by OMB Circular A-122, Attachment B (7).

        Due to changes in salary rates during the calendar year, and a clerical error in November
and December of 2000, there were under-applied labor costs to the projects. For 2000, the
Consortium charged $24,570.23 to the EPA. The actual labor allocated to EPA should have been
$28,937.40 for a difference of $4,367.17. For 2001, the Consortium charged $105,056.22 to the
EPA. The actual labor allocated to EPA should have been $1 19,869.74 for a difference of
$14,813.52. For 2002, the Consortium charged $178,724.74 to the EPA. The actual labor
allocated to EPA should have been $187,991.73 for a difference of $9,266.99. In all, the
                                                32
Consortium undercharged the EPA Assistance Agreements $28,447.68.

        Sixth, the Consortium provided adequate support for direct cost allocations. This activity,
operation of the Geoexchange Information Center, was an activity under a grant from the DOE,
before the EPA Assistance Agreement came into effect. Since the DOE and EPA Scopes of
Work for this activity were identical and overlapped, a portion of three invoices (totaling
$7,884.28) for the Geoexchange Information Center activities were reclassified from the DOE
grant to the EPA Agreement. Once the DOE grant ended, this activity, which was included in the
EPA Scope of Work, was then fully funded under Agreement No. X828299-01. The reclassified
amount of $7,884.28 represents the Consortium's best estimate of the EPA share of the operation
of the Geoexchange lnformation Center for the overlapping period.

        The Consortium also has sufficient detail to support claiming consulting costs of $46,063
under EPA Assistance Agreement X828802-01. The Consortium contracted with a consultant to
assist with activities under Task 2, Indirect Public and Consumer lnformation Dissemination. In
summary, those activities included attendance at trade shows and conferences and conducting
technology transfer presentations to various audiences. Specifically this consultant attended
seven of the thirteen trade shows for the Consortium. This consultant conducted forty- seven of
the seventy-four presentations for the Consortium. Each report submitted by the consultant --
whether an expense or activity report --clearly designated that it was an activity performed
pursuant to EPA Assistance Agreement X828802-01. The Consultant had written the acronym
"EPA at the top of each activity report and in the "Comments" section of each expense report
provided to the Consortium's Project Manager (a.k.a. Communications and August 27, 2003
Government Affairs Director). Each activity report included the following information: Title and
subject of presentation, sponsor of presentation, date of presentation, number of hours spent on
activity, number of attendees, description of attendees; description of hand-out materials,
expected results of presentation, and other relevant information, such as follow-up activities. The
level of effort (number of hours) spent on the activities, as designated by the activity reports, was
charged to the EPA Agreement at the consultant's hourly rate.

        Seventh, the Consortium did competitively procure contractual services in accordance
with 40 C.F.R. § 30.43 and adequately justify contractual services in accordance with 40 C.F.R. §
30.46. OMB's choice of the term "to the maximum extent practical" in the drafting of Circular A-
110 proves that OMB understood that not each and every single procurement could or would be
competitively bid. Rather, OMB Circular A-110 required recipients of federal funds to have a
procurement system in place to ensure maximum competition. The Consortium maintains an
acceptable procurement system which promotes competition to the maximum extent practical;
taking into account dollar thresholds, past performance, follow-on effort, customer needs, and
availability of products and services from other sources. Furthermore, the Consortium provided
information on its procurement activities in each of the Scopes of Work for the two assistance
Agreements that were submitted to the EPA. The Consortium believes that it was in compliance
with the competition requirement in 40 CFR § 30.43 based on the EPA approval of its Scopes of
Work which outlined the basis for contractor selection.

      Eighth, the Consortium complied with most of the reporting requirements. The
Consortium regrets not filing the final financial status report for Assistance Agreement No.
                                                 33
X828299-01 within 90 days of project completion. This was an oversight within the accounting
office. The Consortium has since implemented monthly compliance reports that require the
Consortium's Project Manager to go through a checklist of all reporting and administrative
conditions to make certain that it is in full compliance with all reporting and administrative
conditions of the Agreement.

        The Consortium also erred in not filing an annual report for Assistance Agreement
X828299-01. The Consortium inadvertently missed this condition, which became effective upon
EPA's approval of a six-month extension of the Agreement. That extension caused the
budget/project period to exceed one year. The Consortium has since implemented monthly
compliance reports that require the Consortium's Project Manager to go through a checklist of all
reporting and administrative conditions to make certain that it is in full compliance with all
reporting and administrative conditions of the Agreement.

        During implementation of Agreement No. X828299-01, the Consortium discussed
administrative condition number 15 with the EPA Program Manager. The Consortium initially
inquired about how to document such emissions reductions. The Program Manager explained
that a current EPA program that was documenting building energy performance was underway
but required the services of a professional engineer for proper documentation. The scenario
provided noted that the engineer would need to obtain energy use data, heating and cooling load
data and square footage of a particular building, monitor that building for a time period and then
incorporate the data into an EPA software program to obtain emissions results. The Consortium's
manager of this Agreement recalls that buildings which achieved a certain level of emissions
reductions would receive a certain designation from the EPA. The EPA Program Manager told
the Consortium that because the exercise required the services of a professional engineer to
document the data, monitoring one building would cost approximately $5,000. The Consortium
told the EPA Program Manager that this was not in the original Scope of Work approved by EPA
and, therefore, could not be conducted under the Agreement. The Consortium asked if EPA
provided the funds for the engineering services and was told that it did not. The consortium
responded that it would be unable to document 10-30 buildings because it did not have the funds
to perform such an activity, estimated at $150,000. This is the reason that the Consortium was
unable to provide this information. The Consortium did provide the audit team with the
information based on a survey of actual building installation data conducted by D&R
International for the Consortium in March 2000.

       The Consortium erred in not adding a discussion of expenditures to its quarterly reports
for Assistance Agreement No. X828802-01 and regrets this oversight. The Consortium has since
implemented monthly compliance reports that require the Consortium's Project Manager to go
through a checklist of all reporting and administrative conditions to make certain that it is in full
compliance with all reporting and administrative conditions of the Agreement. The EPA Program
Manager did follow up upon receipt of the quarterly reports noting their timeliness and
completeness. The Consortium was not informed that the reports were missing information.
Based on its quarterly and final report submitted to the EPA Program Manager under both
Assistance Agreements, the Consortium believes that it has provided sufficient information on
the Consortium's progress in meeting the objectives of the Agreements.

                                                 34
       In conclusion, the facts prove that the Consortium's financial management system and
procurement system are adequate in light of the Consortium's role as a non-profit grantee whose
sole mission is to advance the use and improvement of electric geothermal heat pump
technology. Thus, the Consortium very strongly believes that all $1,153,472 of costs should be
allowed under the two Agreements. We invite the EPA to call us to discuss any of the issues
mentioned in the draft audit report. We look forward to resolving this matter in an expeditious
fashion.


                                                           Respectfully submitted,


                                                           Tenley A. Carp
                                                           Attorney for the Consortium


Attachments

cc:    Keith Reichard, U.S. Environmental Protection Agency
       Patricia Brooks Taylor, U.S. Environmental Protection Agency
       Richard Kuhlman, U.S. Environmental Protection Agency
       Jeanne Conklin, U.S. Environmental Protection Agency
       Wael El-Sharif, Geothermal Heat Pump Consortium, Inc.
       Stephen I. Kroll, RSM McGladrey, Inc.
       Douglas W. Charnas, McGuireWoods LLP




                                               35
36
                                                                            Appendix C


                                  Distribution

EPA Headquarters

      Director, Grants Administration Division (3903R)
        (responsible for report distribution to recipient)
      Director, Office of Grants and Debarment (3901R)
      Agency Audit Followup Coordinator (2724A)
      Associate Administrator for Congressional and Intergovernmental Relations (1301A)
      Associate Administrator for Communications, Education, and Media Relations (1101A)
      Audit Followup Coordinator (GAD)


Office of Inspector General

      Inspector General (2410)




                                           37
